IN THE SUPREME COURT OF THE UNITED STATES

No. 19RAMINDER KAUR, PETITIONER
v.
STATE OF MARYLAND, RESPONDENT.

CERTIFICATE OF SERVICE

I, Samuel Bryant Davidoff, counsel for petitioner and a member
of the Bar of this Court, certify that, on January 15, 2020, three
copies of the Petition for Certiorari in the above-captioned case
were

sent,

by

third-party

commercial

carrier

for

delivery

overnight, to the following counsel:
Carrie J. Williams
State's Attorney's Office
Criminal Appeals Division
St. Paul Plaza
200 St. Paul Place
Baltimore, Maryland 21202
I further certify that all parties required to be served have
been served.

RECEIVED
JAN 1 5 2020
9r5g|M°EFcT5u£ByuBsK

